                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00683-130




     Combined Assessment Program 

             Review of the 

       Lebanon VA Medical Center 

         Lebanon, Pennsylvania 





April 24, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Lebanon VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 ISIT           interdisciplinary safety inspection team
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                      CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Interim VISN Director Comments ......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
February 24, 2014.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following two activities:

 Coordination of Care

 Medication Management

The facility’s reported accomplishments were implementing a Centralized Business
Office Center that provides a “one stop” shopping concept and serving as the host site
for a VA-community mental health (MH) summit.

Recommendations: We made recommendations in the following five activities:
Quality Management: Consistently report results of completed Focused Professional
Practice Evaluations for newly hired licensed independent practitioners to the Medical
Executive Committee. Ensure Transfusion Committee members from Surgery and
Anesthesia Services consistently attend meetings.

Environment of Care: Date multi-dose medication vials after initial use. Ensure that all
designated x-ray and fluoroscopy employees receive annual radiation safety training
and that all identified MH staff receive training on how to identify and correct
environmental hazards, proper use of the MH Environment of Care Checklist, and the
VA National Center for Patient Safety study of suicide on psychiatric units. Include VA
Police response time in locked MH unit panic alarm testing. Ensure that MH
Environment of Care Checklist inspections include participation by all required
interdisciplinary safety inspection team members and that the team assigns a risk level
per identified deficiency at the time of acute MH unit inspections.

Nurse Staffing: Implement the Veterans Health Administration’s staffing methodology.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Perform and document daily skin inspections and daily risk scales for patients at risk for
or with pressure ulcers. Provide and document pressure ulcer education for patients at
risk for and with pressure ulcers and/or their caregivers. Ensure all designated
employees receive training on how to administer the pressure ulcer risk scale, how to
conduct a complete skin assessment, and how to accurately document findings.

Community Living Center Resident Independence and Dignity: Ensure staff do not
provide medical treatments to residents during meals in the common dining area.


VA OIG Office of Healthcare Inspections                                                          i
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Comments
The Interim Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–26, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

The review covered facility operations for FY 2013 and FY 2014 through
February 24, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Lebanon VA Medical Center, Lebanon, Pennsylvania, Report
No. 11-01605-279, September 14, 2011).



VA OIG Office of Healthcare Inspections                                                         1
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


During this review, we presented crime awareness briefings for 95 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
78 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Centralized Business Office Center
The facility implemented a Centralized Business Office Center that promotes a
“one stop” shopping concept. Veterans may go to a central location for enrollment,
income testing, identification card processing, beneficiary travel, patient funds, and
release of information. Additionally, the Clinical Administrative Service Area is
co-located so that veterans may check-in for scheduled appointments or update
registration information without having to go to a clinical area.

MH Community Provider Outreach and Partnerships
In September 2013, the facility hosted a MH summit attended by 75 community
providers. The goals of the summit were to increase awareness of available VA
resources, promote partnership between VA and other local MH care providers, and
provide continuing education to MH providers. This effort has fostered further
collaboration, including efforts to form an off-site “mini-summit” with community
providers.




VA OIG Office of Healthcare Inspections                                                         2
                                                CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     FPPEs for newly hired licensed independent       Eleven profiles reviewed:
       practitioners were initiated and completed,       Of the nine FPPEs completed, results of eight
       and results were reported to the MEC.               were not reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                               3
                                                  CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM               Areas Reviewed (continued)                                 Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                 4
                                                 CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Four quarters of Transfusion Committee meeting
       usage met selected requirements:                  minutes reviewed:
        A committee with appropriate clinical            Clinical representatives from Surgery and
          membership met at least quarterly to review      Anesthesia Services attended only one of
          blood/transfusions usage.                        four meetings.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that results of completed
FPPEs for newly hired licensed independent practitioners are consistently reported to the MEC.

2. We recommended that processes be strengthened to ensure that Transfusion Committee
members from Surgery and Anesthesia Services consistently attend meetings.




VA OIG Office of Healthcare Inspections                                                                5
                                                CAP Review of the Lebanon VA Medical Center, Lebanon, PA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the acute MH, intensive care, medical/surgical, and hospice units; one CLC; the
emergency and radiology departments; the dental and eye clinics; and one primary care clinic.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 29 employee training records (9 radiology employees, 10 acute MH unit
employees, 5 ISIT members, and 5 occasional acute MH unit employees). The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM            Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                  
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements       Two multi-dose medication vials were not
       were met.                                          dated after initial use.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,          
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                               6
                                                   CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
 X     Designated employees received initial                None of the eight x-ray and/or fluoroscopy
       radiation safety training and training thereafter     employees with ≥ 2 years of employment
       with the frequency required by local policy,          received radiation safety training annually as
       and radiation exposure monitoring was                 required by local policy.
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
 X     Medication safety and security requirements          Two multi-dose medication vials were not
       in x-ray and fluoroscopy were met.                    dated after initial use.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                      
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, Multidisciplinary Safety              One of the locked MH unit staff, four of the
       Inspection Team members, and occasional               ISIT members, and five of the occasional
       unit workers received training on how to              locked MH unit workers had not completed
       identify and correct environmental hazards,           training on how to identify and correct
       content and proper use of the MH EOC                  environmental hazards, proper use of the MH
       Checklist, and VA’s National Center for               EOC Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric        Patient Safety study of suicide on psychiatric
       units.                                                units.
 X     The locked MH unit(s) was/were in                    Although panic alarm testing was conducted,
       compliance with MH EOC Checklist safety               VA Police response time was not
       requirements or an abatement plan was in              documented.
       place.


VA OIG Office of Healthcare Inspections                                                                       7
                                             CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM      Areas Reviewed for Acute MH (continued)                          Findings
 X     The facility complied with any additional    VHA MH EOC Checklist requirements reviewed:
       elements required by VHA, local policy, or    MH EOC Checklist inspections did not include
       other regulatory standards.                    participation by all required ISIT members.
                                                     ISIT members did not assign a risk level per
                                                      identified deficiency at the time of acute MH
                                                      unit inspections.

Recommendations

3. We recommended that processes be strengthened to ensure that multi-dose medication
vials are dated after initial use and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that all designated x-ray and
fluoroscopy employees receive annual radiation safety training and that compliance be
monitored.

5. We recommended that processes be strengthened to ensure that all locked MH unit staff,
ISIT members, and occasional locked MH unit workers receive training on how to identify and
correct environmental hazards, proper use of the MH EOC Checklist, and VA’s National Center
for Patient Safety study of suicide on psychiatric units and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that locked MH unit panic
alarm testing includes VA police response time and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that MH EOC Checklist
inspections include participation by all required ISIT members and that compliance be
monitored.

8. We recommended that processes be strengthened to ensure that the ISIT assigns a risk
level per identified deficiency at the time of acute MH unit inspections and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                            8
                                                  CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on
1 of 3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                                 CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                    Areas Reviewed                                       Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                               10
                                                  CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility documents and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     The facility either implemented or reassessed      The facility had not implemented VHA’s
       a nurse staffing methodology within the             staffing methodology.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9.    We recommended that nursing managers implement VHA’s staffing methodology.




VA OIG Office of Healthcare Inspections                                                                11
                                                CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 15 EHRs of patients with pressure ulcers (4 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                     Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                In 2 of the 15 EHRs, staff did not consistently
       documenting location, stage, risk scale score,     document the location, stage, risk scale
       and date acquired.                                 score, and/or date acquired.
 X     Required activities were performed for            Four of the 15 EHRs did not contain
       patients determined to be at risk for pressure     consistent documentation that staff performed
       ulcers and for patients with pressure ulcers.      daily skin inspections and daily risk scales.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                12
                                                CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM             Areas Reviewed (continued)                                    Findings
 X     The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For 8 of the applicable 12 patients at risk
       development was provided to those at risk for        for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their                contain evidence that education was
       caregivers.                                          provided.
 X     The facility defined requirements for staff      Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff   requirements reviewed:
       received training on how to administer the        None of the employee training records
       pressure ulcer risk scale, conduct the              contained evidence of how to conduct a
       complete skin assessment, and accurately            complete skin assessment or how to
       document findings.                                  accurately document findings.
                                                         Four employee training records did not
                                                           contain evidence of how to administer the
                                                           pressure ulcer risk scale.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections and daily risk scales for patients at risk for or with pressure
ulcers and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that all designated employees
receive training on how to administer the pressure ulcer risk scale, how to conduct a complete
skin assessment, and how to accurately document findings and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 13
                                                CAP Review of the Lebanon VA Medical Center, Lebanon, PA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 15 EHRs of residents (11 residents receiving restorative nursing services and
4 residents not receiving restorative nursing services but candidates for services). We also
observed two meal periods, reviewed one employee training/competency record and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                    Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
 X     Required activities were performed during         Staff provided resident medical treatments
       resident meal periods.                             during meals in the common resident dining
                                                          areas.



VA OIG Office of Healthcare Inspections                                                                14
                                             CAP Review of the Lebanon VA Medical Center, Lebanon, PA


NM        Areas Reviewed for Assistive Eating                          Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that processes be strengthened to ensure that staff do not provide
medical treatments to residents during meals in the common dining area.




VA OIG Office of Healthcare Inspections                                                           15
                                                 CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                              Appendix A


    Facility Profile (Lebanon/595) FY 2014 through March 2014a
Type of Organization                                                             Tertiary
Complexity Level                                                                 2-Medium complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $224.7
Number of:
    Unique Patients                                                             34,932
    Outpatient Visits                                                           214,137
    Unique Employeesb                                                           1,059
Type and Number of Operating Beds (January 2014):
    Hospital                                                                    49
    CLC                                                                         76
    MH                                                                          43
Average Daily Census (February 2014):
    Hospital                                                                    36
    CLC                                                                         59
    MH                                                                          35
Number of Community Based Outpatient Clinics                                     6
Location(s)/Station Number(s)                                                    Camp Hill/595GA
                                                                                 Good Samaritan/5959GB
                                                                                 Lancaster/595GC
                                                                                 Reading/595GD
                                                                                 York Country/595GE
                                                                                 Pottsville/Fracksville/595GF
VISN Number                                                                      4




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                   16
                                                                       CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                                                    Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                     17
                                                            CAP Review of the Lebanon VA Medical Center, Lebanon, PA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                          18
                                                                                                            CAP Review of the Lebanon VA Medical Center, Lebanon, PA


                                                                         Metric Definitions
 Measure                       Definition                                                                             Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)      A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                             A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                   A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                            A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)         A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                          A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                      A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                 A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                   A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                         A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                   A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)      A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 PSI                           Patient safety indicator                                                               A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                       A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                         A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                   A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                  A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction              A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                 A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                    A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                         A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                             19
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                       Appendix C
                        Interim VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:        April 11, 2014

          From:         Interim Network Director, VA Healthcare – VISN 4 (10N4)

       Subject:         CAP Review of the Lebanon VA Medical Center,
                        Lebanon, PA

             To:        Director, Baltimore Office of Healthcare Inspections (54BA)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. I have reviewed the response provided by the Lebanon VAMC for the
       draft report and I am submitting it to your office as requested. I concur
       with all responses.

       2. If you have any questions or require additional information, please
       contact Barbara Forsha, VISN 4 Quality Management Officer at
       412-822-3290.


        (original signed by:)
       Gary W. Devansky

       Attachment




VA OIG Office of Healthcare Inspections                                                        20
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs 	                                 Memorandum


           Date:       April 4, 2014

          From:        Director, Lebanon VA Medical Center (595/00)

       Subject:        C
                       	 AP Review of the Lebanon VA Medical Center,
                       Lebanon, PA

             To:       Interim Director, VA Healthcare – VISN 4 (10N4)

       1. The recommendations made during the Office of Inspector General
       (OIG) CAP review the week of February 24, 2014, have been reviewed.
       Resolution actions have been accomplished on 6 of the
       recommendations. A plan of action has been developed, implemented
       and will be thoroughly monitored to ensure satisfactory completion on the
       remaining findings.

       2. I would like to personally thank the OIG CAP Survey Team members
       for their professionalism and consultative assistance throughout this
       review. Your review provides an opportunity to further strengthen our
       processes and the great care provided to our Veterans.

       3. If you have any questions or require additional information, please
       contact the Laine Hellein, Director, Quality Management, at 717-272-6621,
       ext. 4407.


           (original signed by:)
       Robert W. Callahan, Jr.




VA OIG Office of Healthcare Inspections                                                        21
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
results of completed FPPEs for newly hired licensed independent practitioners are
consistently reported to the MEC.

Concur

Target date for completion: 8/1/2014

Facility response: As of 3/19/2014 the FPPE completions are documented in a graph
format with details of each review recommended for completion are reflected in the
Medical Staff Executive Board meeting minutes. The Credentialing and Privileging
committee also began documenting completed FPPE’s in their minutes with provider
specific information beginning in March.

Recommendation 2. We recommended that processes be strengthened to ensure that
Transfusion Committee members from Surgery and Anesthesia Services consistently
attend meetings.

Concur

Target date for completion: 8/1/2014

Facility response: All committee members were notified of meeting attendance
expectations. Committee chair will be monitoring attendance and accountable actions
will be taken when attendance trends are identified.

Recommendation 3. We recommended that processes be strengthened to ensure that
multi-dose medication vials are dated after initial use and that compliance be monitored.

Concur

Target date for completion: 8/1/2014

Facility response: A Performance Improvement Group is reviewing the multi-dose vial
labeling policy to ensure compliance with initial use and manufactures guidelines.
Additionally, the Performance Improvement Group will ensure the 28 day expiration
dates are in compliance with refrigeration requirements. Pharmacy is currently
dispensing multi-dose vials to non-refrigerated settings with 28 day expiration dates in
place.




VA OIG Office of Healthcare Inspections                                                        22
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Recommendation 4. We recommended that processes be strengthened to ensure that
all designated x-ray and fluoroscopy employees receive annual radiation safety training
and that compliance be monitored.

Concur

Target date for completion: 7/1/2014

Facility response: Annual radiation safety training has been added to the mandatory
annual training on TMS for all Radiology employees. The radiology manager will be
monitoring for ongoing compliance all x-ray and fluoroscopy staff.

Recommendation 5. We recommended that processes be strengthened to ensure that
all locked MH unit staff, ISIT members, and occasional locked MH unit workers receive
training on how to identify and correct environmental hazards, proper use of the MH
EOC Checklist, and VA’s National Center for Patient Safety study of suicide on
psychiatric units and that compliance be monitored.

Concur

Target date for completion: 7/1/2014

Facility response: Lebanon VA Medical Center staff were assigned the MHEOCC TMS
training of which 76% of Lebanon Medical Center staff have completed. Clinical staff
and the ISIT team members that provide care on the locked MH unit were assigned
both clinical and non-clinical MHEOCC training in TMS. The ISIT members have
completed 100% of required training and 84% of the clinical staff have completed
required training. Quarterly reports will be presented to Medical Staff Executive Board
for compliance with training requirements.

Recommendation 6. We recommended that processes be strengthened to ensure that
locked MH unit panic alarm testing includes VA Police response time and that
compliance be monitored.

Concur

Target date for completion: 7/1/2014

Facility response: The MH unit panic alarm was tested on 3/20/2014 which included VA
Police response times. This test will be completed monthly and be monitored by the
Behavioral Health Associate Chief Nursing Service.




VA OIG Office of Healthcare Inspections                                                        23
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Recommendation 7. We recommended that processes be strengthened to ensure that
MH EOC Checklist inspections include participation by all required ISIT members and
that compliance be monitored.

Concur

Target date for completion: 7/1/2014

Facility response: The ISIT was made a formalized sub-committee of the Environment
of Care Committee. ISIT team members met on 3/27/2014 and completed the MH EOC
checklist. Future quarterly inspection results are presented to the Environment of Care
Committee.

Recommendation 8. We recommended that processes be strengthened to ensure that
the ISIT assigns a risk level per identified deficiency at the time of acute MH unit
inspections and that compliance be monitored.

Concur

Target date for completion: 7/1/2014

Facility response: The Patient Safety Manager and the Patient Safety Officer completed
a risk assessment for all safety concerns noted from the MH EOC conducted on
3/27/2014. All safety concerns with a risk score of 4 will be monitored by unit staff
during unit safety rounds until abatement is completed. Reports and monitoring will be
completed at the ISIT sub-committee with report to the Environment of Care Committee.

Recommendation 9.           We recommended that nursing managers implement VHA’s
staffing methodology.

Concur

Target date for completion: 9/1/2014

Facility response: Annual staffing methodology was completed per VHA
Directive 2010-034. Staffing methodology will be presented and reviewed at the April
session of the Executive Committee of the Governing Board.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: 9/1/2014




VA OIG Office of Healthcare Inspections                                                        24
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Facility response: All acute care nursing staff have been assigned to complete the
MyVeHU Campus training for hospital acquired pressure ulcers. Nurse Managers will
review 10 charts per month to monitor compliance with results reported to the Patient
Care Services Executive Board.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections and daily risk scales
for patients at risk for or with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: 9/1/2014

Facility response: All acute care nursing staff have been assigned to complete the
MyVeHU Campus training for hospital acquired pressure ulcers. Nurse Managers will
review 10 charts per month to monitor compliance with results reported to the Patient
Care Services Executive Board.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: 9/1/2014

Facility response: All acute care nursing staff have been assigned to complete the
MyVeHU Campus training for hospital acquired pressure ulcers. Nurse Managers will
review 10 charts per month to monitor compliance with results reported to the Patient
Care Services Executive Board.

Recommendation 13. We recommended that processes be strengthened to ensure
that all designated employees receive training on how to administer the pressure ulcer
risk scale, how to conduct a complete skin assessment, and how to accurately
document findings and that compliance be monitored.

Concur

Target date for completion: 9/1/2014

Facility response: All acute care nursing staff have been assigned to complete the
MyVeHU Campus training for hospital acquired pressure ulcers. Nurse Managers will
review 10 charts per month to monitor compliance with results reported to the Patient
Care Services Executive Board.




VA OIG Office of Healthcare Inspections                                                        25
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA


Recommendation 14. We recommended that processes be strengthened to ensure
that staff do not provide medical treatments to residents during meals in the common
dining area.

Concur

Target date for completion: 8/1/2014

Facility response: Privacy and dignity training will be completed by all nursing staff.
Nurse Managers will review each dining space during 10 different meal times per month
and any identified medical treatment issues will be reviewed and addressed monthly by
the Patient Care Services Executive Board.




VA OIG Office of Healthcare Inspections                                                        26
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sonia Whig, MS, LDN, Team Leader
Contributors            Gail Bozzelli, RN
                        Donald Braman, RN, BSN
                        Margie Chapin, RT (R, MR, CT), JD
                        Jennifer Christensen, DPM
                        Katharine Foster, RN
                        Terri Julian, PhD
                        Melanie Oppat, MEd, LDN
                        Gerard Poto, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Carol Torczon, RN
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        27
                                          CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Interim Director, VA Healthcare – VISN 4 (10N4)
Director, Lebanon VA Medical Center (595/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr.; Patrick J. Toomey
U.S. House of Representatives: Charles W. Dent, Jim Gerlach, Scott Perry,
 Joseph R. Pitts


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        28
                                                 CAP Review of the Lebanon VA Medical Center, Lebanon, PA
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             29
                                               CAP Review of the Lebanon VA Medical Center, Lebanon, PA



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    30
